Certification of Word Count
No.

In the

Jlmpremp (Ecauri of i\\t

Jiiates

Hozie Rowell, petitioner
v.
Police Officer Joan Ferreira, Sergeant Shane
Killilea and Lieutenant Christopher Popovic,
INDIVIDUALLY AND IN THEIR OFFICIAL CAPACITIES

PETITION FOR WRIT OF CERTIORARI

' As required by Supreme Court Rule 33.1(h), I certify that the
document contains 5561 words, excluding the parts of the
document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and
correct.
Executed on 6/11/2021
J&oD Curry
Curry & Taylor
1726 Nevada AveNE
St. Petersburg, FL 33703
(202) 350-9073

